                          UNCLASSIFIED

       United States Department of State 

     and the Broadcasting Board of Governors 

               Office of Inspector General 





        Information Technology

         Memorandum Report



Review of the Information 

 Security Program at the 

  Department of State 


Report Number IT-I-05-09, September 2005




                              IMPORTANT NOTICE
 This report is intended solely for the official use of the Department of State or the
 Broadcasting Board of Governors, or any agency or organization receiving a copy
 directly from the Office of Inspector General. No secondary distribution may be
 made, in whole or in part, outside the Department of State or the Broadcasting
 Board of Governors, by them or by other agencies or organizations, without prior
 authorization by the Inspector General. Public availability of the document will
 be determined by the Inspector General under the U.S. Code, 5 U.S.C. 552.
 Improper disclosure of this report may result in criminal, civil, or administrative
 penalties.



                           UNCLASSIFIED

        Section 3545 of the Federal Information Security Management Act of 2002
(FISMA)1 directs each agency to conduct an annual independent evaluation of its
information security2 program and practices. FISMA provides a comprehensive
framework for establishing and ensuring the effectiveness of controls over information
technology (IT) that support federal operations and assets, and it provides a mechanism
for improved oversight of federal agency information security programs. Also, Office of
Management and Budget (OMB) implementation guidance for FISMA requires the
Office of Inspector General (OIG) to assess the development, implementation, and
management of the agency-wide plan of action and milestones (POA&M) process and to
focus on performance measures. In response, OIG performed an independent evaluation
of the information security program and practices of the Department of State
(Department).

       The objective of this review was to assess the overall effectiveness of the
Department’s information security program and practices. More details on the scope and
methodology for this review are discussed in Appendix A. OIG received comments from
the Department and incorporated them as appropriate within the body of the report.
Comments from the Department are reprinted in Appendix B.

Results in Brief
         OIG found that the Department’s information security program and practices
continue to evolve under the leadership of the Chief Information Officer (CIO). Also, the
Department has taken several actions to improve the effectiveness of the Department’s
information security program since last year’s independent evaluation. The Department
is in the process of upgrading the information technology application baseline to
strengthen the connections between enterprise architecture, e-Authentication, privacy,
systems authorization, the POA&M process, and the capital planning process. All system
owners and information system security officers (ISSO) will be required to use the
Department’s automated web-based tool to standardize management of self-assessments,
POA&Ms, and performance measures for all data calls. The Department also ensures
that all deficiencies are included in the POA&Ms. The Department’s web-based training
tool is used to ensure that all employees receive an annual information security awareness
briefing.

        Additionally, to identify the number of contractor services or facilities performing
work for the Department using their own systems or connecting to the Department
networks, the Department has initiated a project to be completed within the next three
years. The Department has taken a proactive approach to improve patch management
operations and customer service. The Department continues to operate a successful and
robust cyber incident response program.


1
 Pub. L. No. 107-347, Title III, Sec. 301(b)(1); 44 U.S.C. 3545.

2
 FISMA defines information security as protecting information and information systems from

unauthorized access, use, disclosure, disruption, modification, or destruction in order to provide integrity, 

confidentiality, and availability.



                                                       1

       However, OIG found several key areas that require senior management attention.
The Department still does not have a complete inventory of systems that includes major
applications, minor applications, and general support systems.3 Also, IT security
weaknesses found within a local area network are not included in the POA&M process
because the Department does not consistently define a system throughout documentation
and guidelines. OIG found several deficiencies in the patch management, configuration
management, and the information systems security programs as well.

        The Department’s certification and accreditation process has not been fully
implemented. All general support systems and major applications were certified and
accredited during the 18-month special project. The next phase was to include the post
operations, which most Department officials believe are the weakest link in the layered
security approach that the Department has implemented. All aspects of this project have
not been incorporated into the current evaluation and verification process, and the chief
information security officer (CISO) has not provided formal guidance.

       The separation of the cyber security roles and responsibilities continues to affect
the Department’s information security program. The August 2004 Cyber Security Roles
and Responsibilities Matrix assigns to the Bureau of Diplomatic Security (DS) many
operational responsibilities including the systems-related site evaluation and verification
function. OIG found that the meetings between DS and the Bureau of Information
Resource Management (IRM) do not result in clear statements of work, assignment of
responsibilities, and establishment of milestones. As reported last year, the Department
has no effective coordinating or monitoring mechanism to ensure that assigned
responsibilities are accomplished. Furthermore, OIG noted areas for improvement in the
Department’s Privacy Act implementation.

       Additionally, implementation of information security at overseas posts and
domestic bureaus continues to require Department attention. OIG observed problems
with ISSO duties, patch management, contingency planning, and inappropriate use at
many of the 36 sites visited.

Background
       Information security is imperative to any organization that depends on
information systems and computer networks to carry out its mission. The expansion in
computer interconnectivity and the rapid increase in the use of the Internet are changing
the way the government, private sector, and much of the world communicate and conduct
business. However, without proper safeguards, these developments pose serious risks
that make it easier for people and groups with malicious intent to intrude into
inadequately protected systems and use such access to obtain sensitive information,
commit fraud, disrupt operations, or launch attacks against other computer networks and


3
  The Department defines a general support system as an interconnected information resource under the
same direct management control that shares common functionality.


                                                   2

systems. Furthermore, the number of people with computer skills is increasing, and
intrusion techniques and tools are readily available and relatively easy to use.

        Faced with continued concerns about information security risks to the federal
government, Congress passed and the President signed FISMA into law in December
2002. The new law recognizes the highly networked nature of the current federal
computing environment and provides for a comprehensive framework for ensuring the
effectiveness of information security controls over information resources that support
federal operations and assets. FISMA requires agencies, at a minimum, to develop and
maintain controls to protect federal information and information systems; improve
oversight of federal agency information security programs; develop an agency-wide
information security plan; incorporate information security principles and practices
throughout the life cycles of the agency’s information systems; and ensure that the
information security plan is practiced throughout the life cycles of the agency’s
information systems.

        FISMA also assigns the agency’s CIO the authority and responsibility to
administer key functions under the statute, including designating a senior agency
information security officer who possesses professional qualifications and reports to the
CIO and assists the CIO in developing and maintaining an agency-wide information
security program; developing and maintaining information security policies, procedures,
and control techniques to address all applicable requirements; training and overseeing
personnel with significant responsibilities for information security; and assisting senior
agency officials with their responsibilities.

        Finally, in addition to a number of other provisions, FISMA requires each agency
to have performed an independent evaluation of its information security program and
practices. OIG or the independent evaluator performing a review may use any audit,
evaluation, or report relating to the effectiveness of the agency’s information security
program to do so. The agency is required to submit the independent evaluation, along
with its own assessment, to OMB as part of its annual budget request.

Department’s Progress in Addressing Information Security

Effective Information Security Management Procedures

       To assess the Department’s information management security practices, OIG used
a subjective sample and selected four major application systems4 (American Citizens
Services (ACS), Baseline Tool Kit Back End (BTKBE), Passport Lookout Tracking
System (PLOTS), and Telegram Web Portal (Webgram)) and two general support
systems--Classified Network (ClassNet) and the Public Affairs Communicating
Electronically (PACE) Network. The Bureau of Consular Affairs (CA) manages ACS
and PLOTS; DS manages BTKBE; IRM manages Webgram and ClassNet; and the

4
 The Department defines a major application as an application that requires special attention to security
due to the risk and magnitude of the harm resulting from the loss, misuse, or unauthorized access to or
modification of the information in the application.


                                                     3

Bureau of Public Affairs (PA) manages PACE. OIG’s assessment pertained to
management and operational controls and focused on security control reviews,
contingency planning, data integrity, security awareness, training, and education.

        As shown in Table 1, all six systems have completed the certification and
accreditation process and have documented risk assessments and security plans in place.
Systems undergo security control testing during the system, testing, and evaluation phase
of the certification and accreditation process, which is generally once every three years.
The Department has implemented annual contingency plan testing. One-third of the
systems (two of six) have had the impact levels determined. Two-thirds (four of six)
systems have not complied with the FISMA requirement to test and evaluate security
controls annually. Department officials plan to improve these areas in FY 06.

Table 1: Major Information System Results for Key System Security Elements

                                                                             Tested
                                                                            Security
                                                                            Controls
                                                                  Certified (within Impact
                Risk                                     Security   and     the past Level
System       Assessment Security Level Determined         Plans Accredited year) Determined
ACS             Yes                Yes                     Yes      Yes       No        No
BTKBE           Yes                Yes                     Yes      Yes       No        No
ClassNet        Yes                Yes                     Yes      Yes       No        Yes
PACE            Yes                Yes                     Yes      Yes       Yes       Yes
PLOTS           Yes                Yes                     Yes      Yes       No        No
Webgram         Yes                Yes                     Yes      Yes       Yes       No

        Table 2 shows that ACS, PLOTS, Webgram, PACE and ClassNet have trained
ISSOs, but the BTKBE ISSO has not been trained. All of the reviewed systems have
documented IT security self-assessments, which were performed using the National
Institute of Standards and Technology (NIST) Special Publications 800-26 as criteria, and
contingency plans, which were completed as part of the certification and accreditation
process.




                                            4

Table 2: Results for Training, Planning, and Self-Assessment Elements
                         Contingency Plans Tested or
              Trained              Updated            Security Self
System         ISSO         (within the past year)    Assessments
ACS             Yes                   No                  Yes
BTKBE            No                   No                  Yes
ClassNet        Yes                   No                  Yes
PACE            Yes                  Yes                  Yes
PLOTS           Yes                   No                  Yes
Webgram         Yes                  Yes                  Yes

OIG’s review of these systems found the following.




              American Citizens Services

        CA manages ACS, an automated system designed to provide services to
American citizens living and traveling abroad. The system received full accreditation to
operate in July 2004. As part of the certification process, CA completed the system
security plan and the contingency plan. Also, CA completed the NIST self-assessment,
and security controls for the system and contingency plans were tested as the system went
through certification and accreditation. The bureau has not tested and evaluated security
controls and the contingency plan within the past year.




              Baseline Tool Kit Back End

        DS manages BTKBE, a web-based system that provides trend analysis and
automated report generation of security assessments data. DS conducted and documented
a risk assessment, and developed and tested a systems security plan and contingency plan
as part of the certification and accreditation process. The BTKBE also went through
security control testing. BTKBE received full accreditation to operate in August 2003.

        BTKBE’s primary ISSO has not attended the Department’s Basic ISSO Training
class. Also, DS has not tested and evaluated security controls and the contingency plan
within the past year.




                                           5

                              Classified Network

       ClassNet, managed by IRM, is the global enterprise network that provides secure
transportation of classified information at domestic and foreign sites. ClassNet transports
information classified up to the Secret level in addition to classified and unclassified e-
mail and cable traffic for about 220 posts and 17 domestic bureaus and offices.

       IRM conducted and documented a risk assessment, and developed and tested a
system security plan and contingency plan as part of the certification and accreditation
process. ClassNet underwent system, test, and evaluation in accordance with the
Department’s System Authorization Process Guide. Because of the length of time since
completion of the verification and penetration testing and in special consideration of the
unquantified risk, ClassNet received full accreditation to operate for 18 months in August
2004.




                     Public Affairs Communicating Electronically Network

        PA manages PACE, an unclassified, Internet access network that supports 325
users and seven remote locations. PACE, which is not connected to the Department’s
unclassified network (OpenNet), was created to meet the need for Internet access when
this capability was absent at the departmental level. PA conducted and documented a
risk assessment, and developed and tested security controls and contingency plan as part
of the certification and accreditation process. PACE received full accreditation in
January 2005.




                                             6

               Passport Lookout Tracking System

       CA uses PLOTS to track passport fraud and issue a “lookout” case for
questionable passport applications. A “lookout” case identifies that the application
requires investigation. The system security and contingency plans for PLOTS were
developed, updated, and tested as part of the certification and accreditation process. The
system received full accreditation in March 2004. The bureau completed a self-
assessment on the system using NIST guidance but has not tested and evaluated security
controls and the contingency plan within the past year.




                             Telegram Web Portal

       IRM manages Webgram, a web-enabled system developed for displaying
unclassified and nonrestricted telegrams on the Department’s Intranet. The system
allows authorized users to retrieve their telegrams. OIG found that IRM completed the
NIST self-assessment as the system went through the certification and accreditation
process. In addition, IRM has developed, updated, and tested security and contingency
plans. Webgram received full accreditation to operate in January 2005.

Compliance and Identification of Contractor Facilities and Services

        The CIO and Department program officials have made progress in identifying and
ensuring contractor facilities that support Department programs and services are
adequately secure and meet FISMA, OMB policy, and NIST guidance. The Department
is implementing a policy requiring all new contracts to adhere to FISMA guidelines.
Contracts already awarded will be reviewed, inventoried, and evaluated to verify FISMA
compliance. The Department estimates three years to develop the full universe of
contractor facilities and services, and to determine the compliance with established
information security requirements.

Plan of Action and Milestones Process

       The Department made significant improvements in its POA&M process by
developing an automated tool, State Automated FISMA Reporting Environment
(SAFIRE), to ensure accurate submissions of POA&Ms, create computer-based training



                                            7

on how to use the automated tool, and establish a formal domestic training program for
system managers and other stakeholders.

        The Office of Information Assurance (IRM/IA) is the central point for collecting,
analyzing, managing, and reporting POA&Ms information to OMB and is responsible for
certifying and accrediting all systems. Last year OIG recommended the Department
develop procedures to ensure that the POA&M process addresses IT security findings and
recommendations from external and internal reviews, and to inform regional bureaus and
overseas posts on the responsibilities for remediating identified IT security vulnerabilities
and submitting information to the Department. The Department developed SAFIRE,
which serves as the central repository for POA&Ms data. IRM/IA has asked system
owners to use the automated tool to report their POA&Ms. System owners5 create
POA&Ms when IT vulnerabilities are identified during the certification and accreditation
process, annual self assessments, external and internal audits, evaluations, and
inspections. OIG findings are also used to create a POA&M in SAFIRE.

       In addition to the computer-based training on how to use SAFIRE, the
Department increased awareness of stakeholders through workshops, individual bureau
consultations, monthly bureau meetings, as well as information contained on the IRM/IA
web-site and the POA&M process guide.

Patch Management

       The Department’s patch management program has taken several steps to improve
operations and customer service. An independent consultant reviewed the patch
management program and suggested improvements regarding deploying, automating test
and evaluation, and upgrading the patch distribution tool. In addition, the Department’s
Office of Enterprise Network Management has made the patch management process
more transparent by finalizing patch management standard operating procedures and a
Microsoft Systems Management Server guide. Finally, to promote awareness of the
program, the Office of Enterprise Network Management has provided several patch
management briefings this year and ensured system administrator classes include patch
management training.

Configuration Management

       OIG’s comparison of the Department configuration guides to the NIST
configuration guidance found the Department guidelines meet or exceed NIST
requirements. The Department’s security configuration setting validation tool scans
workstations and servers to compare the operating system settings to the security



5
  5 Foreign Affairs Manual (FAM) 825 defines the system owner as the bureau designated senior
executive who is responsible for the system. Abroad, the system owner is the chargé, deputy chief of
mission, consul general, or principal officer or equivalent.




                                                   8

requirements and produces a report on the configuration status of each workstation and
server.

Cyber Security Incident Response

        The Department’s cyber security incident response program is robust and
efficient. There are basic policies and procedures in place and general awareness
department-wide of how and to whom to report cyber incidents. The Department’s Cyber
Incident Response Team is the central reporting point for computer security events and
incidents on the Department’s information systems. The Cyber Incident Response Team
effectively coordinates with appropriate parties to ensure all security-related incidents are
detected, loss of data and/or resources is minimal, and all issues are resolved.

Awareness and Training

        The Department’s IT security awareness and role-based training program
continues to improve. The Department added file sharing policies to the current
curriculum in response to last year’s OIG report. The Department also deployed and
implemented an on-line computer-based training application for all computer users to
conduct their annual computer security awareness briefing.

        The Department’s information assurance classes provide basic IT security training
for eight roles. The classes are tailored for ISSOs, system administrators, managers,
senior-level managers, executives, regional security officers, and security engineering
officers.

Previously Identified Weaknesses Continue

Inadequate Inventory of IT Systems

       The Department does not have a complete systems inventory that includes major
applications, minor applications, and general support systems. Although 5 FAM 864
requires that all posts and bureaus enter custom-built applications into the Department’s
applications inventory system, not all bureaus and posts are aware of the applications
inventory system and its purpose. For example, OIG identified over 20 applications
created by three posts that should have been entered into the Department’s applications
inventory system. The Department cannot know the full universe of systems and
applications until it ensures that all posts and bureaus enter their information into the
applications inventory system.

        The Department believed the full universe of applications and systems would be
identified as part of its site inspections overseas. During FY 2005, the regional computer
security officers visited 13 posts to perform an evaluation and verification review. The
evaluation and verification process searches the posts’ networks for unauthorized
software, but does not include providing guidance on entering locally approved software
applications into Department’s applications inventory system.


                                             9

        The Information Technology Change Control Board standard operating
procedures require that all applications be entered into the Department’s applications
inventory system prior to being added to the Department’s baseline. The Department has
not included this requirement in the local change control board procedures to ensure that
all applications installed on the Department’s infrastructure are reported.

       Recommendation 1: The Chief Information Officer should rewrite change
       control board procedures to require local change control boards to enter all
       application information into the Department’s applications inventory system.

        Department Response: “The CIO agrees with the recommendation. The
Information Technology Asset Baseline (ITAB) partners will facilitate implementation.
In the process, we will consider adding additional IT assets, including the overseas
applications, contractor systems, and sites into ITAB. The ITAB changes underway must
be completed before any other inventory types may be added. Because the asset
inventory will expand significantly, the Department will follow a phased implementation
process. The CIO is committed to resolving this recommendation and will provide a
schedule with milestones by October 15.”

       OIG Comments: OIG considers the recommendation resolved.

       Last year’s FISMA report recognized a large discrepancy between the number of
applications and systems reported in the Department’s applications inventory system and
the number reported in the Department’s systems authorization process. OIG
recommended that the Department review the applications and systems reported in the
Department’s applications inventory system and determine those to be included in the
Department’s inventory. The Department agreed with the recommendation, which will
remain open until OIG receives the Department’s inventory after a final comparison with
the Department’s applications inventory system.

Inadequate Identification of Contractor Facilities and Services

        In last year’s FISMA evaluation, OIG reported that the CIO should ensure that all
contractor services and facilities are identified and in accordance with established
information security requirements. The Department has a plan to address this deficiency
within three years, and OIG believes that the Department should incorporate this
requirement into the current corrective action plan for information systems security.

       Recommendation 2: The Chief Information Officer should include the
       requirement to develop a complete and accurate inventory of contractor systems
       and facilities into the Department’s current corrective action plan for information
       security.

      Department Response: “The CIO agrees with the recommendation and will
implement an inventory process in line with still-evolving NIST standards. Because of



                                           10

unsettled policy and the overlapping and interwoven nature of contractor systems
containing government information (e.g., contractors that deal with multiple government
agencies), the Department’s response and actions must be coordinated with other
agencies and OMB. As noted in the OIG’s recommendation, the Department’s plan for
addressing inventory, contract modifications and oversight is already being implemented.
Language to address this issue from a contractual perspective is under development by
representatives from across the Department. Upon completion of the new version of
ITAB, central registration of contractor systems will be possible. See also response to
recommendation # 1. The CIO is committed to resolving this recommendation and will
add the requirement to the Federal Managers’ Financial Integrity Act, Corrective Action
Plan.”

       OIG Comments: OIG considers the recommendation resolved.

Plan of Action and Milestones Process Needs Improvement

        All IT weaknesses are not included in the Department’s POA&M process because
the definition of a system remains unclear. The term “system” is used to describe major
applications and general support systems in some Department processes; in other
situations, a local area network is considered a system. IRM/IA’s website states that
system owners are responsible for developing and maintaining POA&Ms for their
systems, recommending milestones and resource requirements, but because of these
conflicting definitions, system owners are unsure of their responsibilities to report their
POA&Ms. Some system owners included their networks in SAFIRE and many did not.
Without consistent reporting of vulnerabilities, the Department cannot determine the
magnitude of the risk and the extent of the remediation activities necessary.

       Recommendation 3: The Chief Information Officer should require that all
       information systems policies and guidance use the same definition for the term
       system.

        Department Response: “The CIO agrees with the recommendation. The official
Department definition of the term ‘System’ is found in 5 FAM 614: System. A
combination of hardware, software, facilities, personnel, data, and services to
perform a designated function with specified results to user(s). The 5 FAM will be
rewritten to contain a separate section that consolidates all terms and definitions.”

       OIG Comments: OIG considers the recommendation resolved.

        Data received from SAFIRE is incomplete because system owners are not
reporting all the required information. OIG was told that some system owners are
reluctant to enter in needed data because the tool has not been accredited. OIG
inspections overseas have found that system owners have limited knowledge about
SAFIRE.




                                            11

        Recommendation 4: The Chief Information Officer should ensure that the State
        Automated Federal Information Security Management Act Reporting
        Environment application is certified and accredited.

        Department Response: “The CIO agrees with the recommendation. The office
that performs systems authorization is the owner of the application. Therefore, to avoid
the potential conflict of interest, the Department hired an independent certification agent.
The State Automated FISMA Reporting Environment (SAFIRE) application is in the
Accreditation phase of the Systems Authorization Process. Remediation of the findings
is complete and barring unforeseen circumstances, the CIO expects to authorize the
system by the end of the fiscal year.”

        OIG Comments: OIG considers the recommendation resolved.

        Recommendation 5: The Chief Information Officer should require that all
        system owners use the State Automated Federal Information Security
        Management Act Reporting Environment application and receive the requisite
        training.

        Department Response: “The CIO agrees with the recommendation. This
activity was not adequately funded in FY2005 due to budget constraints. The Department
will add more resources to the SAFIRE project to increase SAFIRE visibility and
strengthen the message that is already in place through additional training and advocacy.
Furthermore, the SAFIRE team will continue to hold monthly meetings with the bureaus
and continue to offer bureau assistance. In addition, presentations will be provided both
domestically and overseas at conferences.”

        OIG Comments: OIG considers the recommendation resolved.

Patch Management Needs Improvement

        The Department needs to correct deficiencies in patch reporting, enforce
compliance with patch management,6 and increase awareness of patch management and
its responsibilities for nontechnical managers such as chiefs of mission, deputy chiefs of
mission, management officers, and executive directors. The Department adheres to the
NIST guidelines concerning patch management, with the exception of training
administrators on vulnerability resources.

         Last year, OIG found that patch management procedures were not being followed
in six inspections and recommended that the CIO establish written guidance and
procedures on what actions will be taken if overseas posts do not install the patches the

6
  Patch management is an area of systems management that involves acquiring, testing, and installing
multiple patches to a computer system. Patch management tasks include: maintaining current knowledge of
available patches, deciding what patches are appropriate for particular systems, ensuring that patches are
installed properly, testing systems after installation, and documenting all associated procedures, such as
specific configurations required.


                                                   12

Department releases. Despite these recommendations, patch management problems
appear to have proliferated throughout the Department’s posts. Twenty-one of 36 sites
inspected were found to have patch management problems. For example, at 11 sites
visited, OIG found that automated systems failed to accurately report the status of
software security patch management thus providing an erroneous view of network
vulnerabilities. OIG also found that not all required patches were installed in seven posts.

       The monthly patch status report is an inaccurate representation of the
Department’s patch management status because the report does not include the ClassNet
and the majority of domestic sites, as well as Microsoft Systems Management Server
(SMS) inaccuracies that skew the results. Inaccurate reporting of workstations and
incomplete distribution of patches remain a problem. SMS identifies the workstations
and servers connected to the network and distributes the patches accordingly. Hardware,
software, or configuration errors can prevent SMS from recognizing all workstations on
the network. Local administrators must manually install patches on the workstations that
SMS does not recognize. Last year OIG identified 11 posts where SMS inaccurately
reported the patch management status to the Department. The Office of Enterprise
Network Management plans to install SMS 2003 to eliminate this problem.

        The Department does not verify or enforce patch management on ClassNet.
ClassNet has no patch distribution tool, so local administrators must manually install
patches on each workstation. The Office of Enterprise Network Management tracks
compliance by e-mail. If local administrators fail to send the confirmation e-mail, the
patch management group does not follow up to verify that the patches have been
installed. This method leaves many workstations and servers potentially vulnerable to
software security flaws. The Office of Enterprise Network Management plans to
automate the patch installation and validation process this year.

        Inadequate patch management continues to plague the Department and will
continue to do so until patch management compliance is enforced. According to 5 FAM
866, the Designated Approval Authority may disconnect any network that does not meet
the Department’s patch management directives. OIG has no evidence of any post/bureau
being disconnected from the Department’s network because of patch noncompliance.
Without enforcement, posts that are not in compliance can continue operating which
leaves the unclassified and classified networks open to operational problems and
malicious attacks.

       Recommendation 6: The Chief Information Officer should disconnect networks
       that do not comply with the Department’s patch management policies.

       Department Response: “The CIO agrees with the recommendation. This is
supported by existing policy in 5 FAM 866.d that provides, “the Designated Approval
Authority (DAA) may disconnect any system, LAN, or domain that does not comply with
the Department’s Enterprise Patch Management Program’s directives.” Furthermore, the
Department must continue to balance acceptable risk against operational requirements for
information and information systems services.”



                                            13

OIG Comments: OIG considers the recommendation resolved.

        Nontechnical managers are not aware of the criticality of patch management.
Because 5 FAM 825 states the system owner is responsible for the system, nontechnical
managers should have a basic awareness of patch management. The Department needs to
ensure that nontechnical managers understand their responsibilities as a system owner
and how critical patch management is to the confidentiality, integrity, and availability of
their network. Nontechnical managers should have a clear understanding of the patch
management report.

        The Department does not provide guidance to local administrators on how and
where they can obtain data to identify vulnerabilities and corrective measures including
patches for software outside the core baseline. NIST special publication 800-40 states
that local administrators should be trained on identifying vulnerabilities and applicable
patches. Providing local administrators with this information creates another line of
defense in the patch management process.

       Recommendation 7: The Chief Information Officer should develop and
       implement a process for local administrators on identifying vulnerabilities and
       applicable patches for software not included in the core baseline as well as
       identifying additional government resources.

       Department Response: “The CIO generally agrees with the recommendation,
but notes the even greater potential to reduce vulnerabilities by remotely monitoring
networks and administering patches from off-site locations, thereby reducing the burden
on local administrators and improving overall network management. IRM senior
management will coordinate and develop a process for oversight and compliance for
other hardware / software applications or systems. The Local Change Control Boards
(CCBs) report local post patch management activity and approval of IT items to their IT
CCB Voting Representatives and the IT CCB Change Manager. This reporting
mechanism provides information to the Patch Management Team for tracking.”

       OIG Comments: OIG considers the recommendation resolved.

Improvements Needed in Addressing Information Security

Certification and Accreditation Process – A Process in Flux

    As the certification and accreditation process matures, needed improvements are
identified: acceptable risk, penetration testing, and the accuracy of certification and
accreditation data. The evaluation and verification process can provide valuable
information to the Department by determining the vulnerability specific posts present,
remediating the risks identified, and developing mandatory documentation.




                                            14

        The certification and accreditation process does not fully identify the risk that
individual subcomponents or local area networks pose to the Department’s infrastructure.
The Department certified and accredited two general support systems, OpenNet and
ClassNet, without determining all of the risks. OpenNet and ClassNet are distributed
networks that make up a significant part of the Department’s critical infrastructure.
These systems are used by approximately 70,000 personnel worldwide and support
numerous major and minor systems. The certification and accreditation packages for
these general support systems state that a large portion of risk remains unquantified
because of lack of resources, immaturity of the certification and accreditation process,
and time constraints. Both systems received approval for 18 months and will be
recertified in 2006.

       Recommendation 8: The Chief Information Officer should require that a risk
       assessment be conducted on all subcomponents or a representative sample prior to
       reaccrediting the Department’s unclassified and classified networks.

       Department Response: “The CIO agrees with the recommendation. The
Department performed risk assessments on the major components of OpenNet and
ClassNet. For example, the Department performed a risk assessment of the software
image of workstations deployed overseas through the type accreditation of GITM-U and
GITM-C. The systems are currently undergoing the initial phases of re-accreditation and
will undergo more rigorous testing and scrutiny than on the first pass.”

       OIG Comments: OIG considers the recommendation resolved.

        The current evaluation and verification process does not meet the intent of the
system authorization process. Major deliverables that were to result from the site
certification process are not being produced such as security plans, contingency plans,
and risk assessments. In accordance with the 2004 Cyber Security Roles and
Responsibilities Matrix, DS conducts site verifications, which have replaced site
authorizations. In last year’s report, OIG expressed concerns with the division of
responsibilities in the certification process between DS and IRM. OIG also believed that
the proposed division of responsibilities did not allow the CIO oversight of information
system functions performed by DS personnel. In its response, the Department stated that
the shared CIO and DS approach would meet the Department’s needs. OIG has found no
evidence of the CIO setting performance requirements for the DS office that conducts
system site evaluations and verifications.

       Recommendation 9: The Chief Information Officer should provide information
       security requirements that must be addressed during the regional computer
       security officers’ site evaluation and verification visits.

        Department Response: “The CIO agrees with the recommendation. As a matter
of clarification, the report’s text should reflect the fact that the 2004 Roles and
Responsibilities Matrix – developed jointly by the CIO and Assistant Secretary for DS -
established the Evaluation and Verification (E&V) program, and assigned responsibility



                                           15

for this program to DS. The E&V program will help the Department maintain a
continuous monitoring capability in accordance with NIST guidance and in keeping with
the Department’s resource priorities as well as help support the Systems Authorization
programs under CIO oversight.

With regard to E&V oversight, it is also important to note that DS and IRM/IA staffs are
continuing to work closely to develop reporting procedures that will support the CIO in
meeting FISMA responsibilities. Furthermore, DS and IRM/IA present joint quarterly
briefings to the CIO and Assistant Secretary for DS detailing the progress of the E&V
program.

Due to limited staff and funding availability to support the E&V process, the CISO’s
office was limited to setting direction and collaborating with DS to provide high-level
guidance and a framework for the E&V process. The CIO, through the CISO, is acting
on this recommendation by instituting a formal oversight role using performance
measurements and metrics.”

       OIG Comments: OIG considers the recommendation resolved.

         The Department has not performed penetration testing on all systems with high
security levels. The Department has certified 42 systems that require such testing; 37
have not had penetration testing. The Department’s System Authorization Plan states
that all major systems and general support systems with a high security certification level
must receive penetration testing. The CIO has delegated penetration testing to DS. In a
memorandum dated January 5, 2004, DS stated that it was not feasible to perform
penetration testing for all systems going through the certification and accreditation
process. DS further asserted that penetration testing is labor-intensive, time-consuming,
expensive, and potentially dangerous to an organization’s network. DS recommended
that the Department limit penetration testing to general support systems that support the
major and minor applications and a small number of critical systems. In August 2005,
the CIO provided DS a list of applications that must have penetration testing. The
Department’s overseas financial management feeder system has been certified for only
18 months rather than three years, because of no penetration testing.

       Recommendation 10: The Chief Information Officer should enforce the
       requirement for penetration testing as part of the certification and accreditation
       process.

        Department Response: “The CIO agrees with the recommendation. Recently,
NIST informed the Department that it intends to provide clarification on how to more
effectively integrate penetration-test results of General Support Systems into the
authorization of Major Applications. The formal outcome of NIST’s guidance will
provide the Department with critical information necessary to determine the mechanics,
periodicity and linkage of penetration testing results into system authorization activities.
Further, Department draft policy will be modified upon receipt of NIST’s clarification.




                                            16

The expected NIST clarification does not change the penetration testing requirements that
the CIO identified and provided to the Bureau of Diplomatic Security. The testing and
the periodicity specified in the CIO’s directive is considered essential to the continued
security health of the Department’s networks and critical applications. The results of DS
penetration testing will be reviewed as part of future systems authorization activities.”

       OIG Comments: OIG considers the recommendation resolved.

        The certification and accreditation data in the Department’s applications
inventory system, and POA&Ms database, SAFIRE, is inaccurate. As of August 11,
2005, the Department had certified and accredited 32 applications and general support
systems this fiscal year. In the Department’s applications inventory system, there were
10 records with no contingency plan data, 17 records with no system security plan data,
and six records were not entered. Of the 19 records in SAFIRE, OIG identified 15 with
no certification and accreditation data, 15 with no contingency plan data, and 14 with no
system security plan data. All certification and accreditation data in these databases
should be consistent.

       Recommendation 11: The Chief Information Officer should verify the accuracy
       of certification and accreditation information that is input into the information
       technology application baseline and the State Automated Federal Information
       Security Management Act Reporting Environment databases.

        Department Response: “The CIO agrees with the recommendation. The
solution is the development and implementation of the data bridge between the
Information Technology Asset Baseline (ITAB) and the State Automated FISMA
Reporting Environment (SAFIRE). This bridge will align the data within the two tools
and allow for easier and more accurate validation and verification, as well as offer a
complete inventory of systems for the Department including C&A information associated
with them. SAFIRE and ITAB will be feeding information to each other by 2nd quarter
2006.”

        OIG Comments: OIG considers the recommendation resolved. During this
evaluation, the consistency of the data in the applications has improved significantly. As
of September 21, 2005, in the Department’s applications inventory system, there were
four records with no certification and accreditation data, seven records with no
contingency plan data, seven records with no system security plan data, and five records
were not entered. Of the 22 records in SAFIRE, OIG identified two with no certification
and accreditation data, two with no contingency plan data, and two with no system
security plan data.

        As discussed above, other weaknesses have surfaced in the Department’s
certification and accreditation process. The Department has not determined the security
impact level of two-thirds of the systems in OIG’s sample. The Department also has not
established a process to ensure that security controls and contingency plans are tested




                                            17

annually. Finally, the primary ISSO for a major application had not received the required
information systems security training.

Configuration Management Needs To Be Worldwide

        The Department does not require all administrators to comply with configuration
management procedures. Nor does the Department have a process in place to ensure that
the procedures are being followed. There is no reporting requirement for domestic
networks so the Department does not know if all local administrators are following the
required security configuration procedures. In May 2004, the Department required
overseas local administrators to upload quarterly the verification tool results for DS
analysis. OIG found that some posts did not conduct quarterly uploads or did not
include a full scan of their unclassified networks. OIG believes that the Department needs
to require all local administrators to provide quarterly scan results to DS. Furthermore,
OIG found that the Department does not have processes in place to ensure that Oracle
database and Cisco Internet Operating System security configuration procedures are
being implemented.

       Not following department configuration procedures puts the Department at an
unnecessary risk. The Cyber Incident Response Team reports from November 2004 to
June 2005 showed 22 instances of users on OpenNet connecting to remote workstations
outside of the Department, such as their home or school computer. As the current
Microsoft Windows XP configuration guidelines require that the remote services be
disabled, these 22 events show that local administrators have not followed the required
configuration security guidelines. A connection to a remote machine can bypass
perimeter security processes and puts the Department at risk.

       Recommendation 12: The Chief Information Officer should implement a
       process that ensures all local administrators comply with the Department’s
       security configuration guidelines, which includes requiring domestic system
       administrators to provide quarterly security configuration scan results.

        Department Response: “The CIO agrees with the recommendation, however, it
should be noted except that the process may be done remotely or on-site. The Department
is developing a process to improve compliance with security configuration guidelines.
Improved reports include cumulative metrics used to facilitate CISO E&V process
oversight and input into site visit selection. The ISSO program is supporting E&V by
encouraging configuration scans and scheduling scanning tool training in the ISSO
course.”

       OIG Comments: OIG considers the recommendation resolved.

Roles and Responsibilities for Information Security Need To Be Made Clearer

      The integration of the cyber security roles and responsibilities between DS and
IRM has not always been as effective as possible. Friction exists because the current



                                           18

guidance does not clearly define functions, leaves room for misinterpretation of
responsibilities, and causes omissions or duplications in several key information security
activities.

      In an April 2005 memorandum, the CIO assigned to the CISO, who is the director
of IRM/IA, the following responsibilities:

   • 	 developing and maintaining an agency-wide information security program;
   • 	 coordinating the design and implementation of processes and practices that assess
       and quantify risks;
   • 	 developing and maintaining information security policies, procedures, and control
       techniques to address all applicable information security requirements;
   • 	 training and overseeing personnel with significant responsibilities and providing
       liaison with ISSOs domestically and overseas;
   • 	 advising and assisting Department senior management with their information
       security responsibilities; and
   • 	 reporting Department compliance with federal mandates to Department 

       leadership, OMB, and Congress. 


         IRM/IA has not been fully integrated into many of the Department’s ongoing IT
initiatives – especially those that are operational such as standing up the embassy in
Baghdad. IRM/IA was excluded from the decision process where risks were assessed
and waiver decisions made to facilitate IT processing in Baghdad. Also, during a recent
virus outbreak, the August 26, 2005 daily cyber security briefing report stated that
mitigation and remediation actions continue between DS and its IRM security partners,
which did not include IRM/IA. These actions by DS and its IRM security partners
bypassed the coordinating and advising responsibilities of the CISO.

       Recommendation 13: The Chief Information Officer should require that the
       Chief Information Security Officer be included in all operational decisions made
       in Washington that increase the risk to the Department’s information security
       posture.

        Department Response: “The CIO agrees with the recommendation. To address
the issues cited the CIO relies on the CISO in ensuring the security of the Department's
information and information systems. During FY 2005, DS and IRM/IA staff in
partnership with IRM/OPS shared information to resolve operational issues and address
emerging policy challenges. The CIO will formally task all operational elements and all
Department-wide security elements to include the CISO in all operational and policy
decisions that may significantly impact the risk to the Department’s information security
posture.

We note that DS has continued to carry out its operational security duties in accordance
with the Omnibus Diplomatic Security Act. These separate, but complementary, security
responsibilities were documented and approved by the Under Secretary for Management
in 2003 and subsequently updated in 2004.”


                                            19

          OIG Comments: OIG considers this recommendation resolved.

        The conflicting information in the FAM and the foreign affairs handbook (FAH)
regarding each office and individual’s role in cyber security further exacerbates a difficult
situation. In last year’s FISMA evaluation, OIG found that the Department had not
provided clear guidance to posts including roles and responsibilities for meeting
information security management requirements. OIG recommended that the CIO provide
guidance and direct the appropriate bureaus to revise the relevant FAM and FAH
chapters or sections annually, or sooner if significant changes occur. The cyber security
roles and responsibilities matrix, which the Under Secretary for Management approved in
August 2004, does not address any of the overseas or functional bureau participants in
this process. The CIO has included updating the FAM and FAH to reflect the
Department’s information security policies and standards in the IRM corrective action
plan with a milestone date of August 31, 2006, to complete this action.

(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
      (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
            (b) (2)

(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
            (b) (2)



(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
      (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)
          Recommendation 14: (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
          (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)
    (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)




                                               20

      Department Response: “The CIO agrees with the recommendation. The
CISO’s staff is working with the Bureau of Human Resources to professionalize the
ISSO program. The initiative includes establishing mandatory minimum requirements for
ISSOs by end of the calendar year.”

        OIG Comments: OIG considers this recommendation resolved.

        Although much of the responsibility for securing information and IT system
assets has been placed with the ISSO, in most instances these duties were assigned on a
collateral basis and were not the primary duties of the individual designated as the ISSO.
The collateral nature of these assignments reduces the time available to perform ISSO
duties because the incumbents view them as secondary. For example, at four sites OIG
inspected, the ISSOs or alternate ISSOs performed other responsibilities in conjunction
with their primary duties and were overwhelmed by both responsibilities.

        At nine sites visited by OIG, there was inadequate segregation between
information management and information security duties and responsibilities. This lack
of separation of duties led to several weaknesses in the implementation of the
Department’s information systems security program. These weaknesses included
compromised access to classified and sensitive but unclassified information and
inadequate reviews of user directories, system audit logs, and network reviews for
inappropriate or excessive personal use of government equipment. Furthermore, some
ISSOs did not review systems operations and systems maintenance logs and conduct
quarterly network scans. At another site, OIG observed difficulties in revoking access
privileges for personnel leaving the mission and a high number of staff with
administrative rights to unclassified information systems.

Awareness and Training Programs Need Additional Work

        Although all Department network users are required to complete annual security
awareness training to ensure the confidentiality, integrity, and availability of information,
there are no procedures in place to ensure a user completes the awareness training
annually. The role-based IT security training program needs to include the increasing
responsibilities of employees with significant IT security responsibilities.

       All Department employees have not completed the annual awareness training
because there is no enforcement method such as requiring training prior to receiving or
keeping logon access. The Department has over 70,0008 employees, which includes full-
time employees, Foreign Service nationals, and domestic contractors. OIG found that
46,430 computer users have valid certificates, 647 have incomplete certificates, and
23,567 have expired certificates as of August 16, 2005. Incomplete and expired

8
  The number of employees is based on the Bureau of Human Resources number of 57,062 employees
overseas and domestic as of June 30, 2005, and 13,871 active contractor badges reported by DS as of
August 23, 2005. This number includes an estimated number of domestic contractors and thus is different
from the number reported in last year’s FISMA report.


                                                  21

certificates may be for users who have left the Department or have not completed the on-
line test to satisfy the training requirement. Regardless, only 46,430 users have up-to-
date awareness training, which is less than 70 percent of the approximate number of
Department employees.

       Recommendation 15: The Chief Information Officer should develop and
       implement procedures for enforcing the annual computer security awareness
       training requirement.

        Department Response: “The CIO agrees with the recommendation. In FY2005,
the Department implemented procedures that both encourage system users to take the
annual computer security awareness training and provides for enforcement. All parties
desiring access to the Department's primary network, OpenNet, must first complete an
online training session and test. An annual training session and test is required for
continued system access. Enforcement of this policy is delegated to local ISSOs and
effectiveness will be monitored by the CISO’s office. Should enforcement prove
insufficient, the CISO will develop mitigating controls to improve performance.”

       OIG Comment: OIG considers this recommendation resolved.

        The Department has not fully identified which employees have significant IT
security responsibilities. NIST 800-16 identifies 26 functions to be considered when
developing an IT security training program including software developers, project
managers, and contracting officers. The Department was planning to create a course for
software developers by FY 2005. This information assurance course and curriculum for
software developers is still in the preliminary approval stage.

       Recommendation 16: The Chief Information Officer should identify which
       employees need training for key information security functions and design and
       deliver the necessary role-based training.

        Department Response: “The CIO agrees with the recommendation with
comment. Since 2001, the Department has taken steps to identify employees with
significant IT security responsibilities. These efforts are now documented in the
Information Assurance Training Plan. This plan identifies required security training for
specific information assurance roles relevant to the Department. It is a living document
and is reviewed each year to evaluate resources, priorities, and timelines. As additional
roles are added, additional resources will be required to design and deliver additional
role-based training.

Also, the report should note that the Department has, in accordance with NIST SP 800-
16, identified 13 specific roles, the target audience for those roles, and the training
courses available to meet the IA training requirements. This information is documented
in the “FY05 Information Assurance Training Plan.” Moreover, many of the 26 roles in
SP 800-16 have been incorporated into the Department’s set of 13 specific roles. As a
result, resources are focused on meeting the largest percentage of significant employees



                                            22

with IT security responsibilities, specifically the Information Systems Security Officers
(ISSOs), Technical Security Personnel at three levels, IT Managers, Senior-level
Managers, Executives, Special Agents, Security Engineers, and OIG Auditors.”

       OIG Comment: OIG reviewed the “FY 05 Information Assurance Training
Plan” and considers this recommendation closed upon issuance of this report.

Privacy Act Requirements Are Not Addressed

        Additional opportunities exist to improve the Department’s information privacy
activities. Specifically, OIG found weaknesses in the Privacy Act implementation in the
certification and accreditation of systems, inadequate communication on privacy act
training for new employees, and lack of information privacy act awareness throughout
the Department.

        The Department is not consistently capturing information system privacy act
requirements in the Department’s information technology applications baseline, the
central database of all Department systems. Section 208 of the E-Government Act
(Public Law 107-347, 44 U.S.C. Ch 36) requires that systems that collect, maintain, or
disseminate information in identifiable form have privacy impact assessments when
developing or procuring IT systems or projects. These assessments determine whether an
IT system has adequate built-in protections to ensure the privacy and handling of
personal information. Furthermore, the privacy impact assessment evaluates the risks
and effects of collecting, maintaining, and disseminating electronic personal information.
Privacy impact assessments are updated as necessary when a system change creates new
privacy risks or when new uses of an existing IT system significantly change how
information in identifiable form is managed in the system. Privacy impact assessment
information is not mandatory in the Department’s applications inventory system. OIG
found many web-based applications that request and capture users’ social security
numbers, which have not been entered into the Department’s applications inventory
system. Therefore, the Department does not have an accurate representation of all
applications that contain Privacy Act information and the resultant controls that must be
implemented.

       Recommendation 17: The Chief Information Officer should design and
       implement procedures for ensuring that the privacy impact assessment section in
       the Department’s application inventory system is completed for all applications.

        Department Response: “The CIO agrees with the recommendation. The
Department’s new registration process for Information Technology Asset Baseline
(ITAB) will incorporate mandatory privacy reporting into the Department’s application
registration process. Specifically, system owners will be required to file all appropriate
documentation with the Bureau of Administration’s Senior Agency Official for Privacy
for any information category that falls within the scope of a privacy impact assessment.
The system authorization process serves as an additional verification that the applicable




                                            23

documentation is both complete and accurate and the commensurate security controls are
tested.”

       OIG Comment: OIG considers this recommendation resolved.

        The Department does not provide standard Privacy Act training nor does it have a
Privacy Act awareness campaign for the Department workforce. OMB M-05-08 states
the senior agency official shall ensure the agency’s employees and contractors receive
appropriate training and education programs regarding the information privacy laws,
regulations, policies, and procedures that govern the agency’s handling of personal
information.

        The Department’s privacy office assumed a Privacy Act overview is conducted
during the orientation session; however, OIG found such information is not provided
during the DS review of the protection of classified information. The Department
conducts weekly information management officer training that covers the Privacy Act but
there is little to no information privacy awareness training for the remainder of the
Department.

       The Department has not developed guidance on Privacy Act information issues
nor on how or where to obtain Departmental Privacy Act assistance. The Department
Notice on employee roles and responsibilities when dealing with privacy information is
dated September 1993.

       Recommendation 18: The Assistant Secretary for Administration (Senior
       Agency Official for Privacy), in coordination with the CIO and the Office of the
       Legal Adviser, should update guidance on employee Privacy Act responsibilities.

        Department Response: “The Assistant Secretary for Administration (Senior
Agency Official for Privacy) agrees (and the CIO concurs) with the recommendation,
which should be redirected to the Assistant Secretary for Administration. Numerous
efforts are underway that address the need to raise employee awareness of protecting
privacy information. A Department-wide training program for employees and
contractors is under development. Recently, the Office of Information Programs and
Services delivered a three-day course to those employees responsible for processing
Freedom of Information Act and Privacy Act requests from the public.

A Department notice informing employees of their roles and responsibilities with regard
to the Privacy Act and handling of personal information is in clearance.

The Department set-up an e-mail address, Privacy-DL@state.gov mailto:Privacy-
DL@state.gov>, for employees to ask privacy-related questions.

The Department has trained IT systems managers on completing Privacy Impact
Assessments required by Section 208, Privacy Provisions of the E-Government of 2002.




                                           24

Part of that training included detailed guidance on their responsibilities under the Privacy
Act and the handling of personal information.”

       OIG Comment: OIG considers this recommendation resolved.


Additional Information Security Management Deficiencies Identified by OIG
Inspections

       OIG conducted information security inspections at 36 sites during FY 2005. OIG
found numerous issues that should be addressed by the Department to ensure effective
implementation of information security at sites. Besides patch management and ISSO
program deficiencies described earlier, several sites lacked required contingency plans
and documentation, inappropriate material was downloaded to post servers and users’
computers, and the Department policy regarding inappropriate use of government
equipment was not being followed. The details of these deficiencies and
recommendations have been addressed in individual inspection reports.

       Patch Management

        Flaws are identified in software in use that leaves it vulnerable to outside sources
of disruption. Patches are released to fix these flaws, protecting software from such
vulnerabilities, and are an integral part of information systems security. Patches are
necessary to protect software from intrusion or attack. A lack of up-to-date patches
places not only embassies but also the entire Department’s network at risk.

       Contingency Planning

        OIG found that several overseas posts do not have the required contingency plans
for their respective embassies. To assist Department compliance with these documents,
IRM has comprehensive automated templates for developing system specific contingency
plans for classified and unclassified information technology systems.

       Inappropriate Material on Networks

        OIG found several instances of inappropriate material on embassy networks. For
example, nine sites had inappropriate material on the servers that included nonwork
related video and audio files, prohibited software. As a result, systems could be
vulnerable to viruses, which would greatly reduce the productivity and compromise
system security.




                                             25

Recommendations

Recommendation 1: The Chief Information Officer should rewrite change control board
procedures to require local change control boards to enter all application information into
the Department’s applications inventory system.

Recommendation 2: The Chief Information Officer should include the requirement to
develop a complete and accurate inventory of contractor systems and facilities into the
Department’s current corrective action plan for information security.

Recommendation 3: The Chief Information Officer should require that all information
systems policies and guidance use the same definition for the term system.

Recommendation 4: The Chief Information Officer should ensure that the State
Automated Federal Information Security Management Act Reporting Environment
application is certified and accredited.

Recommendation 5: The Chief Information Officer should require that all system
owners use the State Automated Federal Information Security Management Act
Reporting Environment application and receive the requisite training.

Recommendation 6: The Chief Information Officer should disconnect networks that do
not comply with the Department’s patch management policies.

Recommendation 7: The Chief Information Officer should develop and implement a
process for local administrators on identifying vulnerabilities and applicable patches for
software not included in the core baseline as well as identifying additional government
resources.

Recommendation 8: The Chief Information Officer should require that a risk
assessment be conducted on all subcomponents or a representative sample prior to
reaccrediting the Department’s unclassified and classified networks.

Recommendation 9: The Chief Information Officer should provide information security
requirements that must be addressed during the regional computer security officers’ site
evaluation and verification visits.

Recommendation 10: The Chief Information Officer should enforce the requirement for
penetration testing as part of the certification and accreditation process.

Recommendation 11: The Chief Information Officer should verify the accuracy of
certification and accreditation information that is input into the information technology
application baseline and the State Automated Federal Information Security Management
Act Reporting Environment databases.




                                            26

Recommendation 12: The Chief Information Officer should implement a process that
ensures all local administrators comply with the Department’s security configuration
guidelines, which includes requiring domestic system administrators to provide quarterly
security configuration scan results.

Recommendation 13: The Chief Information Officer should require that the Chief
Information Security Officer be included in all operational decisions made in Washington
that increase the risk to the Department’s information security posture.

Recommendation 14: (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
Recommendation 15: The Chief Information Officer should develop and implement
procedures for enforcing the annual computer security awareness training requirement.

Recommendation 16: The Chief Information Officer should identify which employees
need training for key information security functions and design and deliver the necessary
role-based training.

Recommendation 17: The Chief Information Officer should design and implement
procedures for ensuring that the privacy impact assessment section in the Department’s
application inventory system is completed for all applications.

Recommendation 18: The Assistant Secretary for Administration (Senior Agency
Official for Privacy), in coordination with the CIO and the Office of the Legal Adviser,
should update guidance on employee Privacy Act responsibilities.




                                            27

                          Abbreviations


ACS          American Citizens Services
BTKBE        Baseline Tool Kit Back End
CA           Bureau of Consular Affairs
CIO          Chief Information Officer
CISO         Chief Information Security Officer
ClassNet     Classified network
Department   Department of State
DS           Bureau of Diplomatic Security
FAH          Foreign Affairs Handbook
FAM          Foreign Affairs Manual
FIPS         Federal Information Processing Standard
FISMA        Federal Information Security Management Act
IRM          Bureau of Information Resource Management
IRM/IA       Office of Information Assurance
ISSO         Information systems security officer
IT           Information technology
NIST         National Institute of Standards and Technology
OIG          Office of Inspector General
OMB          Office of Management and Budget
OpenNet      Unclassified network
PA           Bureau of Public Affairs
PACE         Public Affairs Communicating Electronically
PLOTS        Passport Lookout Tracking System
POA&M        Plan of action and milestones
SAFIRE       State Automated FISMA Reporting Environment
SMS          System Management Server
Webgram      Telegram Web Portal




                                28

                                                                              Appendix A

                      Objectives, Scope, and Methodology

        The objective of this review was to assess the overall effectiveness of the
Department’s information security program. Specifically, the review included evaluating
the Department’s information security roles and responsibilities, configuration
management, cyber security incident reporting policies, information security awareness
and training, certification and accreditation, and system inventory. Further, the review
included how the agency implements patch management, the role of the Privacy Act
official in IT security, and contractor systems oversight.

        To meet its review objectives, OIG first researched U.S. laws and federal
guidance to identify relevant criteria for implementing and managing information
security programs. OIG then reviewed previous reports that evaluate the Department’s
information security program to identify previous issues and follow up on past
recommendations. OIG also reviewed documents provided by Department officials,
including but not limited to, corrective action plans, standard operating procedures, and
process guides.
         OIG met with officials from DS and IRM to discuss the Department’s procedures
for granting approval and providing oversight to contractor services, inventory, and
facilities; and implementing and managing information security awareness and training.
OIG also attended working group meetings regularly with IRM/IA officials to obtain
necessary information for completing the OMB FISMA report and OIG independent
evaluation report. OIG also selected a subjective sample of the Department’s systems to
evaluate the certification and accreditation process and the application of its security
configuration template.
        OIG’s Information Technology Office performed this evaluation from June 2005
through September 2005. Contributors to this report were Mary Heard, Jennifer Noisette,
Michelle Wood, Olukemi Adebiyi, and Jonathan Tull. Comments or questions about the
report can be directed to Ms. Mary Heard at Heardm@state.gov on 703-284-2656 or
Jennifer Noisette at Noisettejm @state.gov on 703-284-2641.




                                            29

                                                                                     Appendix B

                        Department Response


                                                lnilt'll Slnh·._ f)"l'urlllWnl "f SIll'"




                                                  September 22, 2005


UNCLASSIFIED

INFORMATION MEMO FOR INSPECTOR GENERAL KRONGARD-OIG

FROM,         IRM-JayN.   ~;:~g
SUBJECT: Depanmenl of State Response 10 the GIG Repon entitled Review 0/
         Information Security Program at the Department a/State.

      I appreciate the opportunity to review and comment on the memorandum
repon, Review a/the In/onnation Security Program at the Department a/State.
1T·I·0509. Please find attached the Depanment's response to the recommendations
provided in the memorandum repon.


Attachment:
 As staled.




                               UNCLASSIFIED
                                              Appendix B

                        Department Response


                              UNCLASSIFIED
                                  ·2-

Drafted by: IRM/IA: E Caffrey
            09122/2005 ext. 2-2424
Clearances:
      AlRPS - L. Lohman
      DS/SI ~ D. Reid
      IRM/BPC - C. Liu
      IRMlEX - T. Williamson
      IRM/QP$ - S. Musser
      IRMIIA - J.S. Norris




                              UNCLASSIFIED
                                                                                                  Appendix B

                               Department Response



                               Dqilrtmtal of Stile RtSpo0$e
                                           to tbe
                            OIG MemoriDdum Rtport IT-1-0509
           Rtview of lbe IDformarioD Security Prognlm II tbe DePlrtJMll of Slate

Recommeadltioa I: The Chieflnformation Offieer should rewrile change conllOl board
procedures 10 require local change conlIOl board5 10 enttt all application infomlltion inlO the
Departmenl's applications inventory system.

The CIO agrees with the recommendation. The Information Technology Asset Baseline (ITAB)
partners will facililate implementation. In the process. we will consider adding additional IT
U$el$, including the overseas applications, contractor systems, and 5ites into ITAB. The ITAS
changes WKIerway must be completed before any other inventory 1)l)CS mlY be added. Because
the wei invtnlOl'y will expand signifICantly, the Department will follow I phased
implementation process. The CIQ is committed to resolving this recommendation and will
provide a schedule with milestones by OcIOber 1S.

Recommendation 2: The Chief Information Offiett should include the requirement to develop
a complete and acx:urate inventory of contraclOr s)'Stems and facililies inlO the Department's
current comx:live action plan for information s)'Stems security.

The CIO agrees with the recommendation and will implement an inventory process in line with
still-eVOlving NIST standards. Because of unsettled policy and the overlapping and interwoven
nature ofcontnlCtor Systems containing government informalion (e.g., contractors that deal with
multiple government agencies), the Department's response and actions musl be coordinated with
otheT agencies and OMB. As noted in the OIG's recommendation, the Department's plan for
addressing inventory, contract modifications and oversight is already being implemented.
Language to address this issue from a contractual perspective is under development by
representatives from ilCroSS the Departmenl. Upon completion of the new version of ITAB,
central registration ofcontractor systems will be possible. Set alSQ response to recommendation
# I. The CIO is committed to resolving this recommendation and will add the requirement to
the Federal Managers' Financial Integrity Act, Corrective Action Plan.

Recommendation 3: The Chiefinfonnation Officer should requirt that all infonnation systems
policies and guidance use the same definition for the tenn system.

The CIO agrees with the recommendation. The offieial Department definition of the term
"System" is found in S FAM 614: Syslem. A comblnallon of hardwlrt, software, flcllities,
personnel, dala, Ind serviees to perform I designated funclloll wilb speclned results to
user(s). The S FAM will be rewritten to contain a separate section that consolidates all terms and
definitions.

Recommeadllion 4: The Chief Infonnation Officer should ensure that the State Automated
Federal Information Security Management ACI Reporting Environment application is cerlified
and aceredited.
                                                                                                 Appendix B

                               Department Response



The CIO agrees .....ith the recommendation. The office thai performs systems authorization is the
owner ofthe application. 1llerefore, to avoid the poIential conflict ofinleresl, the Depanment
hired an independent certification agent The Swe Automated FlSMA Reporting Environment
(SAFIRE) application is in the Accrediwion phase ofthe Systems Authorization
Process. Remediation ofthe findings is complete and barring unforeseen circumstances, the CIO
expects to authorize the system by the end of the fiscal year.

RK'Ommctldatioa.5: The Chiefln(ormation Officer should require that all system ownen use
the Swe Automated Federallnfonnation Security Management Act Reponing Environment
applk.ation and receive the requisite rraining.

The CIO agrees with the recommendation. This activity was not adequately funded in FY200S
d~ to budget constraints. The Department will ..d more resources to the SAFlRE project to
increase SAFIRE visibility and strengthen the message that is .lready in place Uu'ough additional
tnUning and advocacy. Furthermore,the SAFIRE tearn will continue to bold monthly meetings
with the bureaus and continue to ofTer bureau assistance. In addition., presentations will be
provided both domestically and overseas at conferences.

Recommetld.t1otl 6: The Chieflnfonnation Officer should disconnect networks th.t do not
comply with the Department's patch management policies.

The CIO agrees with the recommendation. This is supported by exisling policy in S FAM 866.d
that provides, "the Designated Approval Authority (OAA) may disconnect any system, LAN, or
domain that does not comply with the Department's Enterpri&e Patch Management Program's
directives." Fwthennore, the Department must continue to balance acceptable risk: against
operational requirements for infonnation and infonnation systems services.

RecommeadalioD 7: The Chieflnfonnation Officer should develop and implement a process
for local administrators on identifying vulnerabilities and applicable patches as well as
identifying additional government resources.

The CIO generally agrees with the recommendation, but notes the even greater potential to
reduce vulnerabilities by remotely monitoring networks and administering patches from off-site
locations, thereby reducing the burden on local administrators and improving overall network
management. IRM senior management will coordinate and develop a process for oversight and
compliance for other hardware I software applications or systems. The Local Change Control
Boards (CCBs) report local post patch management activity and approval of IT items to their IT
CCB Voting Representatives and the IT CCB Change Manager. This reporting mechanism
provides infonnation to the Patch Management Team for tracking.

Rec:ommeadatloa 8: The Chief Infonnation Officer should require that a risk assessment be
conducted on all subcomponents or a representative sample prior to reaccrediting the
Dcpanment's unclassified and classified networks.

The CIO agrees with the recommendation. The Department perfonned risk assessments on the
major components ofOpmNet and ClassNet. For example, the Department performed a risk



                                                2
                                                                                                  Appendix B

                               Department Response



assessment of the software image ofwOfbtations deployed overseas through the type
accreditation ofGITM-U and GJTM·c. The systems are currently undergoing the initial phases
ofre-accreditation and will undergo more rigorous testing and scrutiny than on the first pass.

Recommendation 9: The Chief Infonnation Officer should provide infonnation security
requiremcnts for the regional computer security officers' enhanced evaluation and verification
visits.

The CIO agrees with the recommendation. As a mailer of clarification, the report's text should
reflect the fact that the 2004 Roles and Responsibilities Matrix - developcdjointJy by the CIO
and Assistant Secretary for OS - established the Evaluation and Verification (E&V) program,
and assigned responsibility for this program to OS. The E&V program will help the Department
maintain a continuous monitoring capability in accordance with NIST guidante and in keeping
with the Department's resource priorities as well as help support the Systems Authorization
programs under CIO oversight.

With regard to E&V ovenighl, it is also important to note that OS and IRMIIA $I.lffs are
continuing to work elosely to develop reporting procedures that will support the CIO in meeting
FISMA respons.ibilities. Funhennore. OS and JRMIIA present joint quanerly briefings to the
CIO and AS5istant SecreIary for OS detailing the progress of the E&V program.

Due to limited SI.lff and ftmding availability to support the E!tV process, the CISO's offlCC was
limited to setting difCICtion and collabon.ting with OS to provldc: high-level guidance: and a
framework for the E&V process. The CIO. through the ClSO, is acting on this ~mmenda!ion
by ill$lituting a fonnal ovenight role using perfonnancc measurements and metriC$.

Recommeadatioa 10: The ChicfInfonnation Officer should enforce the requirement for
penetration testing as pan of the certification and accreditation process.

The CIO agrees with the TttOmmendation. Recently, NIST informed the Department that it
intends to provide clarification on how to more effectively integrate penetration.test results of
General Support Systems into the authoriz.ation of Major Applications. The fonnal outcome of
NIST's guidance will provide the Department with critical information necessary to determine
the mechanics, periodicity and linkage of pc:netration testing results into system authoriz.ation
activities.    Further, Department draft policy will be modified upon receipt of NIST's
clarification.

The expected NIST clarification does Il()( change the penetralion testing requirements that the
CIO identified and provided to the Bureau of Diplomatic Security. The testing and the
periodicity .sp«:ified in the CIO's directive is considered essential to the continued security
health orthe Department'S netWorks and critical applications. The results ofCS pc:oetration
testing will be reviewed as pan of future systems authorization activitiC$.

RecommeDdatioD II: The Chief Information Officer should verify the accUTaCy ofcc:nificatMm
and accreditation information thai is input into the informatMm technology appl~tion baseline:




                                                ,
                                                                                                                   Appendix B

                                        Department Response


 and the State Automated Federal Information Security Management Act Reporting Environment
 databases.

 The CIO .agrees with the recommendation. The solution is the development and implementation
 ofthe data bridge between the Information Technology Asset Baseline (ITAS) and the State
 Automated FISMA Reporting Environment (SAFIRE). This bridge will align the data within the
 two tools and allow for easier and more accurate validation and verification, as well as offer a
 complete inventory ofsystems for the Department including C&A information associated with
 them. SAFIRE and ITAB will be feeding information to each other by 2.... quaner 2006.

 Recommendation 12: The Chief information Officer should implement a process that ensures
 all local administrators comply with the Department's security configuration guidelines, which
 includcs requiring domestic system administrators to provide quarterly security configuration
 scan results.

 Thc cia agrees with the recommendation, however, it should be noted except that the process
 may bc done remotely or on-site. The Department is developing a process to improve
 compliance with security configuration guidelines. Improved reports include cumulative metrics
 used to facilitate CISO E&V process oversight and input into site visit selection. The 1550
 program is supporting E&V by encouraging configuration scans and scheduling scanning tool
 training in the 1550 course.

 R~ommeDdatlon 13: The Chief Information Officer should require that the Chieflnfonnation
 Security Officer be included in all operational decisions that increase the risk to the
 Department's information security posture.

 The cia agrecs with the rc<:ommendation. To address the issues dted the CIO relies on the
 CISO in ensuring the security of the Department's information and information systems. During
 FY 2005, OS and IRMIIA staff in partnership with IRMIOPS shared information to resolve
 operational issues and address emerging policy challcnges. The cia will fonnally task all
 opcrational elements and all Department-wide security elements to include the CISO in all
 operational and policy decisions that may significantly impact the risk to the Department's
 infomllltion securit)' posture.

 We notc that OS has continued to carry out its operational security duties in accordance with the
 Omnibus Diplomatic Securit)' Act. These separate, but complementary, securit)' responsibilities
 were documented and approved by the Under Secretary for Management in 200] and
 subsequently updated in 2004.

 Rc<:ommendatiOD 14: (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)




                                                             4
                                                                                                   Appendix B

                                Department Response


Recommendalion 15: The Chief Information Officer should develop and implement procedures
for enforcing the annual computer security awareness-lraining requirement

The CIO agrees with the recommendation. In FY2oo5, Ihe Department implemented procedures
that both encourage system users to take the annual computer security awareness training and
provides for enforccment. All parties desiring access to the Department's primary network,
OpenNet. must first complele an online training session and test. An annual training session and
test is required for continued system access. Enforcement ofthis policy is delegated to 1000aI
ISSOs and effet.:tiveness will be monitored by the CISO's office. Should enforcement prove
insufficient, the CISO will develop mitigating controls to improve performance.

Also, the report should nOle that the Department has, in accordarn:.:e with NIST SP SOO-16,
identified 13 spcdfic roles, the target audience for those roles, and the training courses available
to meet the IA trainins requirements. This information is do<:umented in the "FY05 Information
Assurance Training Plan." Moreover, many of the 26 roles in SP SOO-16 have been incorporated
into the Department'S set of 13 specific roles. As a result, resources are fo<:used on meeting the
largest percentage ofsignificant employees with IT security responsibilities, specifically the
Information Systems Security Officers (ISSOs), Technical Security Personnel at three levels, IT
Managers, Senior·level Managers. Executives. Special Agents, Security Engineers, and OIG
Auditors.

Recommendation t 6: The Chief Information Officer should identify which employees need
training for key information security functions and design and deliver the necessary role-based
training.

The CIO agrees with the recommendation with comment. Since 2001, the Department has taken
steps to identify employees with significant IT security responsibilities. These efforts are now
do<:umented in the Information Assurance Training Plan. This plan identifies required security
training for specific information assurance roles relevant to the Department. It is a living
document and is reviewed each year to evaluate resources, priorities, and timelines. As
additional roles are added, additional resources will be required to design and deliver additional
role-based training.

ReeommendaCion 17: The Chief lnformation Officer should design and implement procedures
for ensuring that the privacy impact assessment section in the Department's application
inventory system is completed for all applications.

The CIO agrees with the re<:ommendation. The Department's new registration process for
Information Technology Asset Baseline (ITAS) will incorporate mandatory privacy reponing
into the Department's application registration process. Specifically, system owners will be
required to file all appropriate documentation with the Bureau of Administration's Senior
Agency Official for Privacy for any information category that falls within the scope of a privacy
impact assessment. The system authorization process serves as an additional verification that the
applicable do<:umentation is both complete and accurate and the commensurate security controls
are tested.




                                                 5
                                                                                                 Appendix B

                               Department Response



RecommendatioD 18: The Chieflnformation Officer should update guidance on employee
privacy act responsibilities.

The Assistant Secretary for Administr.ation (Senior Agency Official for Privacy) agrees (and the
CIO concurs) with the recommendation, which should be redirected to the Assistant Secretary
for Administration. Numerous effolts are underway that address the need to raise employee
awareness of protecting privacy infonnation. A Depanment-wide training program for
employees and contractors is under development. Recently, the Office oflnfonnation Programs
and Services delivered a three-day course to those employees responsible for prlX:essing
Freedom of Infonnation Act and Privacy Act requests from the public.

(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
The Department set-up an e-mail address.Privacy-DL@state.gov mailto:Privacy-
DL®state.gov>, for employees to ask privacy-related questions.

The Department has trained IT systems managers on completing Privacy Impact Assessments
required by Section 208, Privacy Provisions of the E-Govemment of2002. Pan of that training
included detailed guidance on their responsibilities under the Privacy Act and the handling of
personal information.




                                                6
